Exhibit A

Filed 1/24/20 P. v. Huggins CA3

NOT TO BE PUBLISHED
California Rules of Court, ^rule^8/l 115(a),^prohibits^courts and parties froimjiting or relying on opinions not^certified^for^
or ordered published for purposes of rule 8.1 fl 5.
^^
**' '________________ "______ ^

IN THE COURT OF APPEAL OF THE STATE OF CALIFORNIA
THIRD APPELLATE DISTRICT
(Sacramento)

THE PEOPLE,

C086939

Plaintiff and Respondent,

(Super. Ct. No. 17FE008641)

v.
THYOCHUS A. HUGGINS,
Defendant and Appellant.

Defendant Thyochus A. Huggins burglarized the home of N.G. and S.G. After a
jury trial, the jury found him guilty of one count of first degree residential burglary (Pen.
Code, § 459;1 count one); two misdemeanor counts of shoplifting (§ 459.5; counts two &
three); and one felony count of receiving stolen property (§ 496, subd. (a); count four).
In a bifurcated bench trial, the trial court found true the allegation^ that defendant had
been convicted of a strike prior and two prior serious felonies. The court sentenced

l

Further undesignated statutory references are to the Penal Code.
1

defendant to a total of 22 years in state prison, comprised of the upper term of six years
on count one, doubled to 12 years based on the prior strike offense, plus two consecutive
five-year enhancements for the prior serious felony convictions. The court also ordered
defendant to pay restitution to N.G. and S.G. in the amount of $9,100.
On appeal, defendant argues that (1) the judgment must be reversed because the
trial court, in responding to a request for reappointment of counsel, preemptively denied
any future request to renew his right of self-representation under Faretta v. California
(1975) 422 U.S. 806 [45 L.Ed.2d 562] (.Faretta); and (2) the restitution award must be
reversed because his counsel was ineffective in failing to object to the amount of
restitution or request a restitution hearing to contest the amount of the award. Defendant
also argues that in light of Senate Bill No. 1393 (2017-2018 Reg. Sess.; Stats. 2018, eh.
1013, §§ 1, 2, eff. Jan. 1, 2019) (Senate Bill 1393), this case must be remanded to allow
the trial court to exercise its newly enacted discretion to strike one or both of the fiveyear prior serious felony enhancements.
Although we reject defendant’s Faretta and ineffective assistance claims, we
agree that the case must be remanded to permit the court to exercise its discretion under
Senate Bill 1393, to pronounce a sentence under count four, and to correct a clerical error
in the abstract of judgment. We otherwise affirm the judgment.
FACTUAL AND PROCEDURAL BACKGROUND
Defendant burglarized the home of N.G. and S.G., stealing various items of value.
He then went on a shopping spree using S.G.’s stolen credit cards to purchase or attempt
to purchase items from stores in the area. By viewing store surveillance videos, N.G.’s
nephew was able to identify defendant’s vehicle and license plate number. Two days
later, the nephew saw defendant’s vehicle parked at a shopping center. The nephew
called the police and defendant was arrested. In defendant’s car, officers found several
items of property belonging to N.G. and S.G., including health insurance cards, bank

2

cards, checks, credit cards, watches, jewelry, and a jewelry box. Other items stolen from
N.G. and S.G. were not recovered.
An amended information was filed charging defendant with one count of first
degree residential burglary; two misdemeanor counts of shoplifting; and one felony count
of receiving stolen property. The amended information also alleged three strike priors
(§§ 667, subd. (e)(2), 1170.12, subd. (c)(2)), two prior serious felony conviction
enhancements (§ 667, subd. (a)), and two prior prison term enhancements (§ 667.5, subd.
(b)).
On October 3, 2017, at a pretrial competency hearing, defendant made a Faretta
motion to discharge his attorney and represent himself. The court conducted an inquiry
into defendant’s request, which suggested that defendant is an adherent of the “sovereign
citizen” movement. Though the precise contours of the philosophy differ among the
various groups, sovereign citizens generally believe that so long as they preserve their
sovereign status, they do not have to answer to any government authority. {Severson &
Werson, P.C. v. Sepehry-Fard (2019) 37 Cal.App.5th 938, 943; United States v. Mitchell
(D.Md. 2005) 405 F.Supp.2d 602, 605-606; Gravattv. United States (Fed.Cl. 2011) 100
Fed.Cl. 279, 282 & fn. 1.) Although the sovereign citizen defense has “ ‘no conceivable
validity in American law’ ” {United States v. Jonassen (7th Cir. 2014) 759 F.3d 653, 657,
fn. 2), it appears that defendant wanted to advance a sovereign citizen defense to contest
the court’s jurisdiction. When his appointed counsel refused to follow his demands,
defendant sought to proceed pro se. (See, e.g., Jonassen, supra, 759 F.3d at p. 657; see
also United States v. Schneider (7th Cir. 1990) 910 F.2d 1569, 1570.)
After conducting an inquiry into defendant’s request, the trial court denied
defendant’s motion for self-representation, concluding that defendant was not able or
willing to abide by the rules of procedure and courtroom decorum. At his next court
appearance on October 12, before a different judge, defendant renewed his Faretta
motion. This time the court granted the motion.
3

Defendant did not represent himself for long. On November 22, 2017, five days
before his scheduled trial date, defendant requested reappointment of counsel. The court
granted the motion. Before doing so, the court warned defendant about his vacillating
requests for counsel and self-representation. The court told defendant that he would not
be allowed to “pick and choose” when he was going to represent himself. The court
informed defendant that if it granted his motion for reappointment of counsel, defendant
would be “represented by an attorney from this point on,” and that the court was “not
going to appoint an attomey[] a month or two down the road [if] you decide you want to
represent yourself.”
Defendant confirmed he wanted counsel, but insisted this would not prevent him
from again seeking self-representation if his appointed counsel failed to comply with his
demands. Defendant told the court, “[I]f my attorney fails to do his job, I’m going to ...
ask him to file a waiver to say he doesn’t want to represent me, and ... [a] Judge is going
to have to answer that. ...” He went on to say: “I understand that I have a constitutional
right to have representation. I also know that I have a right to represent myself as well.”
The court responded that if counsel is reappointed, defendant would not be able to
represent himself again, stating, “If I give you an attorney, you will have an attorney from
this point on to represent you. [][] I won’t let you discharge the attorney, [f] If you are
having a conflict with that attorney ..., you [may] have another attorney appointed in
their place, but you will not be allowed to represent yourself again because you are
choosing an attorney to represent you rather than represent yourself.” The court
reappointed counsel and continued defendant’s trial date.
In early February 2018, shortly before the continued trial date, defendant moved
under People v. Marsden (1970) 2 Cal.3d 118 (Marsden) to discharge his court appointed
attorney and appoint substitute counsel. The court denied the motion. At his Marsden
hearing, defendant never asked to represent himself; in fact, he made it clear that he
wanted counsel, he simply wanted a different lawyer.
4

Defendant did not make another Marsden or Faretta motion and his case
proceeded to trial on February 21, 2018. The jury found defendant guilty on all counts.
In a bifurcated bench trial, the court found true the allegations related to the
enhancements.
At sentencing, with the agreement of the parties, the court ordered that defendant’s
case would be sentenced as a two-strike case.2 The court sentenced defendant to a total
of 22 years in state prison. The court sentenced defendant to the upper term of six years
on count one (burglary), doubled to 12 years based on defendant’s prior strike history.
(§ 667, subd. (e)(1), 1170.12, subd. (c)(1).) The court determined that aggravating
circumstances justified the upper term because defendant had a lengthy criminal history
with prior convictions of increasing seriousness (Cal. Rules of Court, rule 4.421(b)(2);3
defendant had served prior prison terms (rule 4.421(b)(3); defendant’s prior performance
on probation and parole was unsatisfactory (rule 4.421(b)(5); and defendant was on
parole when the crime was committed (rule 4.421(b)(4). The court also cited the nature
of the current crime, which indicated a level of planning, sophistication, or
professionalism (rule 4.421(a)(8)).
The court imposed two 30-day sentences on counts two and three (shoplifting) to
run concurrently with his prison term. The court stayed the imposition of sentence on
count four (receiving stolen property) pursuant to section 654. The court imposed two
consecutive five-year enhancements for defendant’s two prior serious felony convictions
under section 667, subdivision (a). It also imposed, but stayed, two one-year prior prison
term enhancements under section 667.5, subdivision (b). Defendant filed a timely notice
of appeal.

2

The court dismissed the strike portion of prior conviction No. 2 and the entirety of
prior conviction No. 3.
3

Further undesignated rule references are to the California Rules of Court.
5

DISCUSSION
I
Faretta Motion
Defendant contends the judgment must be reversed because he was denied his
Sixth Amendment right to represent himself. The record belies his contention.
A defendant in a criminal case possesses two mutually exclusive constitutional
rights with respect to representation: the right to be represented by counsel at all critical
stages of a criminal prosecution and the Sixth Amendment right to self-representation.
{People v. Marshall (1997) 15 Cal.4th 1, 20 {Marshall).) The right to counsel is self­
executing. {Id. at p. 20.) “The right to counsel persists unless the defendant affirmatively
waives that right. [Citation.] Courts must indulge every reasonable inference against
waiver of the right to counsel. [Citation.]” {Ibid) Thus, courts will deny a motion for
self-representation if the defendant’s words or conduct reflect ambiguity or ambivalence
about the defendant’s desire to proceed pro se. {Id. at p. 23; People v. Stanley (2006) 39
Cal.4th 913, 932.)
Courts do not extend the same kind of protection to the right of self-representation.
{Marshall, supra, 15 Cal.4th at p. 20.) Unlike the right to be represented by counsel, the
right of self-representation is not self-executing and can be waived or abandoned if the
defendant fails to invoke it. {Id. at pp. 20-21; accord, People v. Butler (2009) 47 Cal.4th
814, 825 [“It is settled that the Faretta right may be waived by failure to make a timely
request to act as one’s own counsel [citation], or by abandonment and acquiescence in
representation by counsel [citations];” People v. Trujeque (2015) 61 Cal.4th 227, 264
[“Based on the circumstance that defendant accepted ... counsel and that he did not
renew his request for self-representation, ‘we conclude he must further be found to have
ultimately abandoned his desire to invoke his Faretta rights in these capital murder
proceedings.’ ”]; People v. Stanley, supra, 39 Cal.4th at p. 933; see also People v. Weeks
(2008) 165 Cal.App.4th 882, 887-890.)
6

To invoke the constitutional right to self-representation under Faretta, three
requirements must be met. First, the defendant must be mentally competent and make his
request knowingly and intelligently, having been apprised of the dangers of self­
representation. (.People v. Jackson (2009) 45 Cal.4th 662, 689.) Second, the defendant
must unequivocally assert his or her right of self-representation. {Ibid) Third, the
defendant must make the request for self-representation within a reasonable time before
trial. {Ibid) Once trial has commenced, demands for self-representation are addressed to
the sound discretion of the court. {Ibid.; People v. Barnett (1998) 17 Cal.4th 1044,
1104-1105; People v. Bloom (1989) 48 Cal.3d 1194, 1220 [once trial has commenced, the
right to self-representation is no longer based on the Constitution]; People v. Rivers
(1993) 20 Cal.App.4th 1040, 1050 [same].)
Where a defendant makes a timely, intelligent, and unequivocal request for self­
representation, Faretta requires the court to grant the motion. {People v. Bloom, supra,
48 Cal.3d at p. 1219; People v. Windham (1977) 19 Cal.3d 121, 128.) Failure to grant a
properly made Faretta motion is structural error that requires reversal of the judgment
without an assessment of prejudice. {People v. Joseph (1983) 34 Cal.3d 936, 947-948;
People v. Boyce (2014) 59 Cal.4th 672, 702; but see People v. Rogers (1995) 37
Cal.App.4th 1053, 1058 [denial of an untimely Faretta motion reviewed under the
harmless error test].)
Here, defendant does not contend that the trial court erroneously denied a timely,
intelligent, and unequivocal request for self-representation. It is undisputed that after the
trial court granted defendant’s request for reappointment of counsel, defendant never
again asked to represent himself (or otherwise reasserted his Faretta right) and his case
proceeded to trial. Nevertheless, relying on People v. Dent (2003) 30 Cal.4th 213 {Dent),
defendant argues that the trial court violated Faretta by preemptively denying his Sixth
Amendment right to represent himself in the future should he so choose. We find
defendant’s reliance on Dent misplaced.
7

In Dent, when the trial court proposed to replace the defendant’s appointed
counsel due to inattentiveness, the defendant objected and told the court that he would
prefer to represent himself. {Dent, supra, 30 Cal.4th at pp. 216-217.) The trial court
denied the defendant’s request to proceed pro se out of hand, telling the defendant that it
would not let him represent himself in a death penalty case. {Id. at pp. 217, 220.)
On appeal, the Supreme Court agreed with the defendant that the trial court had
denied his Faretta request on an improper basis, i.e., because it was a death penalty
murder trial. {Dent, supra, 30 Cal.4th at p. 218.) The People argued, however, that the
trial court nevertheless properly denied the request because it was equivocal. {Id. at pp.
218-219.) The court was not persuaded, characterizing the defendant’s request as
conditional, rather than equivocal. {Id. at p. 219.) In any event, the court held that it was
unnecessary to decide whether the defendant’s request was equivocal because the trial
court’s ruling effectively prevented the defendant from making a less equivocal request.
{Id. at p. 219.) By foreclosing any realistic possibility that the defendant would perceive
self-representation as an available option, the trial court interfered with the defendant’s
Faretta right. {Ibid.) Under these circumstances, the court found it “less probative than
in other cases that defendant failed to renew his [Faretta) motion upon meeting his new
counsel.” {Id. at p. 220.)
The Supreme Court distinguished Dent in two subsequent cases: People v.
Lancaster (2007) 41 Cal.4th 50 {Lancaster) and People v. Gomez (2018) 6 Cal.5th 243
{Gomez).
In Lancaster, after the defendant twice invoked and abandoned his Faretta right,
the trial court warned the defendant that he could not keep vacillating and that it needed
to be a “ ‘permanent decision.’ ” {Lancaster, supra, 41 Cal.4th at p. 69.) The trial court
told the defendant that if in the future he again sought to proceed in propria persona, the
decision “ ‘probably would not be in [his] favor.

8

9

99

{Ibid.)

Relying on Dent, the defendant argued on appeal that the trial court’s comments to
him operated as a “ ‘preemptive denial’ ” of his Faretta right of self-representation.
(Lancaster, supra, 41 Cal.4th at p. 69.) The Supreme Court disagreed. The court noted
that, unlike Dent, the trial court had not denied any pending Faretta request; the court
merely advised the defendant that he could not continue to alternate between representing
himself and being represented by counsel. (Id. at pp. 69-70.) The court construed the
trial court’s warning to the defendant as an “understandable” attempt to discourage the
defendant from abusing his Faretta right. (Id. at p. 70.) It also held that “[w]hile the
[trial] court should not have warned defendant that he needed to make ‘a permanent
decision’..., the impropriety was slight and caused neither fundamental nor prejudicial
error.” (Ibid.)
The Supreme Court further distinguished Dent in Gomez, supra, 6 Cal. 5th 243. In
Gomez, the defendant invoked his Faretta right approximately nine months before trial.
(Id. at pp. 268-269.) In granting the request, the trial court warned the defendant about
switching back and forth between representing himself and being represented by counsel.
(Id. at p. 269.) Notwithstanding the court’s warning, about two weeks later, the
defendant sought to abandon his pro se status and asked the court to reappoint counsel.
(Ibid.) The trial court granted the request, but before doing so, it reminded the defendant
that he would not be allowed to switch back and forth and told the defendant that if
counsel was reappointed, it would be the “ ‘final change.

•>

5?

(Ibid.)

Although the defendant never reinvoked his Faretta right, he argued on appeal
that the trial court nevertheless violated Faretta by preemptively denying his right to self­
representation. (Gomez, supra, 6 Cal.5th at p. 269.) The Supreme Court disagreed. (Id.
at p. 271.) The court distinguished Dent because it involved an outright denial, whereas
in Gomez, as in Lancaster, the defendant had vacillated between self-representation and
the right to counsel. (Gomez, at pp. 270-271.) Recognizing the difficulties posed by a
defendant’s intermittent assumption of his own defense, the court held that trial courts are
9

“not foreclosed from preemptively discouraging such requests when it identifies a pattern
of vacillation that, over time, will harm the progress of trial and the defendant’s ability to
put on a defense.”4 (Id. at pp. 271-272.) Thus, considered in context, the trial court’s
statement that

6C (

this is a final change’ ” was held not to violate Faretta. (Gomez, at pp.

271-272.)
This case is more closely analogous to Lancaster and Gomez than Dent. As in
Lancaster and Gomez, defendant’s request for self-representation was granted before
defendant changed his mind and requested reappointment of counsel five days before
trial. Confronted with defendant’s vacillation between self-representation and
representation by counsel, and with trial looming, the trial court told defendant that if it
granted his request to reappoint counsel, defendant would not be allowed to return to self­
representation. The court subsequently granted defendant’s request for reappointment of
counsel and continued the trial date.
Although some of the trial court’s comments to defendant may have been
“precipitous” (Lancaster, supra, 41 Cal.4th at p. 69), the record shows that defendant
understood that he had a constitutional right to self-representation should his appointed
counsel fail to accede to his demands. As it turns out, defendant grew unhappy with his
appointed counsel, but rather than seek a return to self-representation, he filed a Marsden
motion, which was heard shortly before the continued trial date. At the hearing,
defendant made clear that he wanted to be represented by counsel at trial—he simply
wanted a different lawyer.

4

The court also rejected an argument that Lancaster would have been decided
differently if the trial court’s comments in that case had “been phrased in more certain
terms.” (Gomez, supra, 6 Cal.5th at p. 271.) The court held that the import of Lancaster
does not turn on such “subtle distinctions in wording.” (Gomez, at p. 271.)
10

By failing to renew his request for self-representation and acquiescing to
representation by counsel through trial, defendant implicitly abandoned his right of self­
representation. Regardless, we conclude that the reasoning of Lancaster and Gomez is
controlling. Nothing in the record gives any indication that defendant’s decision to
accept and retain attorney representation was influenced by anything the court said or did.
To the contrary, the record portrays defendant as articulate, assertive, and intelligent. He
knew his rights and was not shy about asserting them. Further, the trial court did not
deny any pending Faretta request; it merely advised defendant that with trial fast
approaching, he could not continue to alternate between representing himself and being
represented by counsel. We therefore conclude there was no Faretta violation.
II
Ineffective Assistance of Counsel
Defendant argues that he received ineffective assistance of counsel because his
lawyer failed to object to the amount of victim restitution ordered or to request a
restitution hearing. We disagree.
A.

Additional background

Before sentencing, the probation officer recommended the court order defendant
pay $9,100 in victim restitution to N.G. and S.G. This amount was based on a restitution
claim form submitted by N.G. In the claim form, N.G. estimated that he lost 12 gold
necklaces, seven gold rings, one purse, and one wallet. N.G. estimated the lost items cost
about $9,100 to purchase.
At trial, N.G. testified that the items stolen from him and not recovered included
six gold necklaces, four gold rings, two purses, one wallet, and various (unidentified)
pieces of inexpensive jewelry. N.G. estimated the value of such items as “probably”
between $7,000 and $8,000.
At sentencing, the trial court ordered defendant to pay victim restitution to N.G.
and S.G. in the amount of $9,100. Defendant’s counsel did not object.
11

B.

Analysis

Defendant recognizes that his failure to object forfeited any direct challenge to the
restitution order, so he instead argues that his counsel’s failure to object constituted
ineffective assistance of counsel.
To establish ineffective assistance, a defendant must show (1) counsel’s
performance fell below an objective standard of reasonableness under prevailing
professional norms, and (2) the deficient performance prejudiced the defendant. {People
v. Ledesma (1987) 43 Cal.3d 171, 216-218; Strickland v. Washington (1984) 466 U.S.
668, 687-692 [80 L.Ed.2d 674, 693-696].)
In measuring counsel’s performance, judicial review is highly deferential.
{Strickland v. Washington, supra, 466 U.S. at p. 689; In re Andrews (2002) 28 Cal.4th
1234, 1253.) There is a presumption that counsel acted within the wide range of
reasonable professional assistance. {People v. Mai (2013) 57 Cal.4th 986, 1009.) When,
as here, the strategic reasons for challenged decisions are not apparent from the record,
we will not find ineffective assistance of counsel unless there could have been “ ‘ “no
conceivable tactical purpose” ’ ” for counsel’s acts or omissions. {People v. Earp (1999)
20 Cal.4th 826, 896; see also People v. Arce (2014) 226 Cal.App.4th 924, 930-931.)
In this case, we can conceive of a rational tactical reason for failing to object to the
amount of restitution recommended in the probation report. Counsel could have
concluded that the amount of restitution ordered was favorable to defendant, and that
requesting a restitution hearing might lead to a higher award. Thus, we disagree with
defendant that there is no conceivable tactical reason for trial counsel’s failure to object.
In any event, it is not enough for defendant merely to assert that his counsel should
have requested a hearing on restitution. Defendant must show that he was prejudiced by
his counsel’s conduct. {People v. Ledesma, supra, 43 Cal.3d at p. 217.) In other words,
he must show that, but for his counsel’s conduct in failing to request a restitution hearing,
it is reasonably probable that the court would have ordered a lesser amount of restitution.
12

(People v. Foster (1993) 14 Cal.App.4th 939, 943-948, superseded by statute on other
grounds as stated in People v. Sexton (1995) 33 Cal.App.4th 64, 70.) Defendant has not
met this burden; he offers nothing more than speculation based on an apparent
discrepancy between N.G.’s written claim and trial testimony that the award might have
been lower.
Because defendant has shown neither deficient performance, nor prejudice, we
reject his claim of ineffective assistance.
Ill
Senate Bill 1393
Under the law in effect at the time of defendant’s sentencing, the trial court had no
authority to strike a prior serious felony conviction for purposes of the five-year
enhancement of a sentence under section 667, subdivision (a)(1). (Former §§ 667, subd.
(a)(1) & 1385, subd. (b).) Senate Bill 1393 (2017-2018 Reg. Sess.), which went into
effect during the pendency of this appeal, amended the law to permit a trial court to strike
a five-year serious felony prior. (§§ 667, subd. (a)(1), 1385, subd. (b).) Defendant
argues that the amendment applies retroactively to this case and, as a result, we must
remand this matter to the trial court to allow it to exercise its discretion whether to strike
the five-year prior serious felony enhancements.
The People concede that Senate Bill 1393 applies retroactively to defendant’s
case. (People v. Garcia (2018) 28 Cal.App.5th 961, 973; People v. Jones (2019) 32
Cal.App.5th 267, 272.) The People argue, however, that remand to the trial court is not
necessary because the trial court clearly indicated that it would not have stricken the
enhancements even if it had the discretion.
Where a trial court is unaware of its sentencing discretion, remand is required
unless “the record reveals a clear indication that the trial court would not have reduced
the sentence even if at the time of sentencing it had the discretion to do so.” {People v.

13

Almanza (2018) 24 Cal.App.5th 1104, 1110; People v. McDaniels (2018) 22 Cal.App.5th
420, 426-427.)
Here, remand is proper because the record does not clearly indicate the trial court
would have declined to strike defendant’s prior serious felony convictions if it had the
discretion to do so. The trial court made no express statements to that effect. Although
the trial court elected to impose the upper term on the burglary charge, we do not
construe this, by itself, as a clear indication of what the trial court would have done if it
had been aware of the full extent of its discretion under Senate Bill 1393. (People v.
Almanza, supra, 24 Cal.App.5th at pp. 1110-1111 [“speculation about what a trial court
might do on remand is not ‘clearly indicated’ by considering only the original sentence”];
see also People v. Jones, supra, 32 Cal.App.5th at p. 274.) Defendant should have the
opportunity to argue to the trial court that it should exercise its discretion to strike the
prior serious felony enhancements. We therefore remand for this purpose.
IV
Errors in the Abstract ofJudgment
In their brief, the People argue that the court clerk erred in preparing the abstract
of judgment because the abstract fails to reflect the imposition and stay of the prior prison
term enhancements under section 667.5, subdivision (b). We agree and therefore direct
the trial court to correct the abstract of judgment accordingly. {People v. Mitchell (2001)
26 Cal.4th 181, 185.)
In addition, based on our review of the record, we have identified a sentencing
error in the oral pronouncement of judgment, namely, that the trial court failed to impose
a sentence on count four before staying execution of that count. (See People v. Duff
(2010) 50 Cal.4th 787, 796; People v. Alford {2010) 180 Cal.App.4th 1463, 1469.) We
will remand this matter to the trial court to impose sentence on that count and order
execution of that sentence stayed under section 654. {People v. Sanders (2012) 55
Cal.4th 731, 743, fn. 13; People v. Scott (1994) 9 Cal.4th 331, 354 & fn. 17.)
14

DISPOSITION
We remand this matter to the trial court with directions to (1) impose sentence on
count four and order execution of that sentence stayed under section 654, and (2) exercise
its discretion under sections 667, subdivision (a)(1), and 1385, subdivision (b), as
amended by Senate Bill 1393 (2017-2018 Reg. Sess.) and, if appropriate following the
exercise of that discretion, resentence defendant accordingly. The trial court is
additionally directed to correct the abstract of judgment to reflect the imposition and stay
of the prior prison term enhancements under section 667.5, subdivision (b). We direct
the trial court to prepare an amended abstract of judgment and to forward a certified copy
of the amended abstract of judgment to the Department of Corrections and Rehabilitation.
The judgment is otherwise affirmed.

KRAUSE

We concur:

HULL

., Acting P. J.

DUARTE

, J-

15

.,J-

Exhibit B

Court of Appeal, Third Appellate District
Andrea K. Wallin-RoUmann, Clerk
Electronically FILED on 2/5/2020 by L. Outman, Deputy Clerk

NOT TO BE PUBLISHED
California Rules of Court, mle 8/l11S(a),^prohibits^courts and parties fromcitingor relying on opinions not certified for
or ordered published forpurpos^of rule^.fffs. <*etl by ml6
This °Pinion has not t)een certified for publication

IN THE COURT OF APPEAL OF THE STATE OF CALIFORNIA
THIRD APPELLATE DISTRICT
(Sacramento)

THE PEOPLE,

C086939

Plaintiff and Respondent,

(Super. Ct. No. 17FE008641)

v.

ORDER DENYING
REQUEST TO VACATE
OPINION AND
SUBMISSION OF THE
CAUSE

THYOCHUS A. HUGGINS,
Defendant and Appellant.

&

ORDER MODIFYING
OPINION
[CHANGE IN JUDGMENT]

THE COURT:
It is ordered that the request to vacate opinion and submission of the cause filed on
Jnauary 31, 2020, be denied.
It is ordered that the opinion filed on January 24, 2020, be modified as follows:

1

1. In the first paragraph of the opinion that begins on page one and ends on page
two, insert the following sentence prior to the last sentence of the paragraph:

The court imposed, but stayed, two one-year prior prison term enhancements
under section 667.5, subdivision (b).

2. Delete the second full paragraph on page two and replace it with the following
paragraph:

Although we reject defendant’s Faretta and ineffective assistance claims, we
agree that the case must be remanded to permit the court to exercise its discretion under
Senate Bill 1393 and to pronounce a sentence under count four. We also conclude that
under Senate Bill No. 136 (2019-2020 Reg. Sess.; Stats. 2019, ch. 590, § 1) (Senate Bill
136), effective January 1, 2020, defendant no longer qualifies for the prior prison term
enhancements imposed under section 667.5, subdivision (b). Accordingly, we will direct
the trial court to strike those enhancements. We otherwise affirm the judgment.

3. On page 14, delete the first full paragraph in part I V and replace it with the
following paragraphs:

In their brief, the People argue that the court clerk erred in preparing the abstract
of judgment because the abstract fails to reflect the imposition and stay of the prior prison
term enhancements under section 667.5, subdivision (b). We conclude that Senate Bill
136 (2019-2020 Reg. Sess.), which amended section 667.5, subdivision (b), retroactively
applies to defendant, and therefore the prior prison term enhancements must be stricken.
Effective January 1, 2020, Senate Bill 136 amended section 667.5, subdivision (b)
to limit the circumstances under which a one-year prior prison term enhancement may be
2

imposed. (Stats. 2019, ch. 590, § 1.) Under the new law, a trial court may impose the
one-year enhancement only when the prior prison term was served for a sexually violent
offense as defined in Welfare and Institutions Code section 6600, subdivision (b). (Stats.
2019, ch. 590, § 1.) Defendant’s prison priors were not served for sexually violent
offenses and therefore do not qualify as enhancements under amended section 667.5,
subdivision (b).
Amended section 667.5, subdivision (b) applies retroactively to defendant because
his judgment was not final on the amended statute’s effective date. (People v. Jennings
(2019) 42 Cal.App.5th 664, 681; People v. Smith (2015) 234 Cal.App.4th 1460, 14651466.) Accordingly, defendant's two one-year prior prison term enhancements must be
stricken.

4. On page 15, delete the paragraph under the heading “DISPOSITION” and
replace it with the following paragraph:

We remand this matter to the trial court with directions to (1) strike the two oneyear prior prison term enhancements imposed under section 667.5, subdivision (b), (2)
impose sentence on count four and order execution of that sentence stayed under section
654, and (3) exercise its discretion under sections 667, subdivision (a)(1), and 1385,
subdivision (b), as amended by Senate Bill 1393 (2017-2018 Reg. Sess.) and, if
appropriate following the exercise of that discretion, resentence defendant accordingly.
We direct the trial court to prepare an amended abstract of judgment and to forward a
certified copy of the amended abstract of judgment to the Department of Corrections and
Rehabilitation. The judgment is otherwise affirmed.

This modification changes the judgment. (See Cal. Rules of Court, rule
8.264(c)(2).)
3

BY THE COURT:

Hull, Acting P. J.

Duarte, J.

KiS*l
Krause, J.

4

IN THE

Court of appeal of tye &tate of California
IN AND FOR THE

THIRD APPELLATE DISTRICT
MAILING LIST
Re:

The People v. Huggins
C086939
Sacramento County
No. 17FE008641

Copies of this document have been sent by mail to the parties checked below unless they were
noticed electronically. If a party does not appear on the TrueFiling Servicing Notification and is
not checked below, service was not required.

Office of the State Attorney General
P.O. Box 944255
Sacramento, CA 94244-2550

Kimberley Ann Donohue
Office of the Attorney General
PO Box 944255
Sacramento, CA 94244-2550

Lindsay Sweet
Attorney at Law
600 F Street, Suite 3, PMB 600
Areata, CA 95521

Central California Appellate Program
2150 River Plaza Drive, Suite 300
Sacramento, CA 95833

Honorable Gerrit W. Wood
. Judge of the Sacramento County Superior Court
V 720 Ninth Street
Sacramento, CA 95814

* *«

9l

4

Flow

*i
b

FELONY ABSTRACT OF JUDGMENT—DETERMINATE

^

(NOT VALID WITHOUT COMPLETED PAGE TWO OF CR-290 ATTACHED)

:uprR inft rnMHT DF r A' EDPMIA rmiMTYpp-

FILEOMlOORSi

SACRAMENTO
dob:

PEOPLE OF THE STATE OF CALIFORNIA vs.
DEFENDANT:

07/08/1982

17FE008641

-A

THYOCHUS A. HUGGINS

5113561

0 PRISON COMMITMENT

-C

□ NOT PRESENT

FELONY ABSTRACT OF JUDGMENT

0 COUNTY JAIL COMMITMENT

DATE OF HEARING

DEPT. NO.

04/12/2018

31

(-I AMENDED
‘—’ABSTRACT

T. BROWN

D. COUGHLIN, 10418

PROBATION NO. OR PROBATION OFFICER

COUNSEL FOR DEFENDANT

4

CRIME

YEAR CRIME
COMMITTED

1st Degree Residential Burg
Buy/Receiv Stolen Property

2017
2017

SECTION NO.

459*
496(a)

0 APPOINTED

SUSANNAH MARTIN, APD

1. Defendant was convicted of the commission of the following felonies:
0 Additional counts are listed on attachment
______ (number of pages attached)

PC
PC

w-

f~| IMMEDIATE SENTENCING

A-508,589

COUNSEL FOR PEOPLE

1

DEPUTY CLEKK

GERRITWOOD

REPORTER

CODE

E. BERNARDO

JUDGE

CLERK

COUNT

By:

-D

KITTY CANALES, DDA
i

APR 1 2 2018

-B

AKA:

cm no.: A11916872
booking no.: XREF:

CR-290

»
CONVICTED BY

%

DATE OF
CONVICTION
(MOJOATE/YR.)

£3

02/28/18 X
02/28/18 X
/
/
/
I

1

Ui

s

u

e

1

I*

l
2

X

////

PRINCIPAL OR
CONSECUTIVE
TIME IMPOSED

19

YRS.

MOS.

X

12

0

X

/
/
/
I

2. ENHANCEMENTS charged and found to be true TIED TO SPECIFIC COUNTS (mainly in the PC 12022 series). List each count enhancement
horizontally. Enter time imposed, "S" for stayed, or "PS” for punishment struck. DO NOT LIST ENHANCEMENTS FULLY STRICKEN by the court.
COUNT

ENHANCEMENT

TIME IMPOSED.
“S,"or"PS"

ENHANCEMENT

TIME IMPOSED,

"S,"or"PS"

TIME
IMPOSED, "S,"
or "PS"

ENHANCEMENT

TOTAL

3. ENHANCEMENTS charged and found to be true for PRIOR CONVICTIONS OR PRISON TERMS (mainly in the PC 667 series). List all enhancements
horizontally. Enter time imposed, "S' for stayed, or "PS" for punishment struck. DO NOT LIST ENHANCEMENTS FULLY STRICKEN by the court.
ENHANCEMENT

Prior #1: 667(a)PC

TIME IMPOSED,
”S," or "PS"

5 yrs

TIME IMPOSED,
"S,”or"P$"

ENHANCEMENT

Prior #2: 667(a)PC

TIME IMPOSED,
"S," or "PS"

ENHANCEMENT

S yrs

TOTAL

10

0

4. Defendant sentenced 0 to county jail per 1170(h)(1) or (2)
f
\
0 to prison per 1170(a), 1170.1(a) or 1170(h)(3) due to 0 current or prior serious or violent felony 0 PC 29CpeQFL PC 186 .11 enhancement
0 per PC 667(b)-(i) or PC 1170.12 (strike prior)
T
0 per PC 1170(a)(3). Preconfinement credits equal or exceed time imposed. I~1 Defendant ordered fo r
5. INCOMPLETE SENTENCE(S) CONSECUTIVE
COUNTY

local parole or probation office.

£

6. |

TOTAL TIME ON ATTACHED kftGES^^^fJf

CASE NUMBER

7. O Additional Indeterminate term (seetB&292)?",ir<'

ZZHIIIIZI]
I

8. I TOTAL TIME:

Attachments may be used but must be referred to in this document.
Form Adopted for Mandatory Use
Judicial Council of CaUfomta
CR-290 [Rev. July 1.2012]

FELONY ABSTRACT OF JUDGMENT—DETERMINATE

22 yrs

0 mos
Page 1 of 2
Penal Code,
§1213,1213.5

!

1

CR-290
PEOPLE OF THE STATE OF CALIFORNIA vs.
DEFENDANT:

THYOCHUS A. HUGGINS

17FE008641

-A

-B

9. FINANCIAL OBLIGATIONS (plus any applicable penalty assessments):
a. Restitution Fines:
Case A: $ 300.00 per PC 1202.4(b) (forthwith per PC 2085.5 if prison commitment); S 300.00
per PC 1202.44 is now due, probation having been revoked.
$
CaseB: $.

-D

-C

per PC 1202.45 suspended unless parole is revoked,

per PC 1202.4(b) (forthwith per PC 2085.5 if prison commitment); $,
per PC 1202.44 is now due, probation having been revoked,

per PC 1202.45 suspended unless parole is revoked.

per PC 1202.4(b) (forthwith per PC 2085.5 if prison commitment); $,
per PC 1202.44 is now due, probation having been revoked,

per PC 1202.45 suspended unless parole is revoked.

per PC 1202.4(b) (forthwith per PC 2085.5 if prison commitment); $
per PC 1202.44 is now due, probation having been revoked.
b. Restitution per PC 1202.4(f):
Case A; $
□ Amount to be determined
to
CD victim(s)*
CaseB: $
CD Amount to be determined
to
CD vlctlm(s)*

per PC 1202.45 suspended unless parole is revoked.

5.
CaseC: $.

$.
CaseD: $.

$

CaseC: $.

CD Amount to be determined

to

CaseD: $.

□ Amount to be determined

to

CD Restitution Fund
CD Restitution Fund

CD victim(s)*

CD Restitution Fund

CD victim(s)*
CD Restitution Fund
[3 Victim name(s), if known, and amount breakdown in item 13, below. 0 'Victim name(s) in probation officer’s report.

c. Fines:
Case A: $

per PC 1202.5 $.

per VC 23550 or_____

days □county jail □ prison in lieu of fine □ concurrent □ consecutive
□$___ Lab Fee per HS 11372.5(a) □ $. ____ Drug Program Fee per HS11372.7(a) for each qualifying offense
per PC 1202.5 $.
per VC 23550 or_____ days □ county jail □ prison in lieu of fine Q concurrent □ consecutive

□ includes:
Case B: $.

□ includes:
CaseC: $.

□$___ Lab Fee per HS 11372.5(a) □ $

____ Drug Program Fee per HS 11372.7(a) for each qualifying offense
per VC 23550 or____ _ days □ county jail □ prison in lieu of fine □concurrent □ consecutive
□$___ Lab Fee per HS 11372.5(a) □ $ ____ Dreg Program Fee per HS 11372.7(a) for each qualifying offense

per PC 1202.5 $.

□ includes:
CaseD: 1

Jper PC 1202.5 $.______per VC 23550 or______
days □ county jail □ prison in lieu of fine □concurrent □ consecutive
□ indudes:
□$___ Lab Fee per HS 11372.5(a) □ $ ____ Dreg Program Fee per HS 11372.7(a) for each qualifying offense
d. Court Operations Assessment: $ 160 per PC 1465.8. e. Conviction Assessment: S120 per GC 70373. f. Other: $___ per (specify):______

10. TESTING: 0 Compliance with PC 296 verified □ AIDS per PC 1202.1
11. REGISTRATION REQUIREMENT: □ per (specify code section):

□ other (specify):

12. I
l MANDATORY SUPERVISION: Execution of a portion of the defendant's sentence is suspended and deemed a period of mandatory supervision
under Penal Code section 1170(h)(5)(B) as follows (specify total sentence, portion suspended, and amount to be served forthwith):____________
Total:
Served forthwith:
J Suspended:

13. Other orders (specify): Per Prob Officer’s Rpt-Deft has no complied w/ Ct order purs 29810PC, however Deft has no reportable firearms per PO rpt
Victim Restitution: $98.90 P&A Liquor; $660.65 Wal-Mart Rancho
Cordova; $2.98 Eco Liquor; $9,100.00 Nikolay & Svetlana G all purs
1202.4PC.
14. IMMEDIATE SENTENCING: □ Probation to prepare and submit a
post-sentence report to CDCR per 1203c.
Defendant's race/national origin: Black
15. EXECUTION OF SENTENCING IMPOSED
a. 0 at Initial sentencing hearing
b. □ at resentencing per dedsion on appeal
c. □ after revocation of probation

16. CREDIT FOR TIME SERVED
CASE

ACTUAL

TOTAL CREDITS

689 days

A

345days

LOCAL CONDUCT

344 days

B

I 1
I I
I /I

2933
2933.1
4019

I

I 2933
2933.1

I
I
I
I
1
1

1
1
I
1
1
1

4019

c
D
Date Sentence Pronounced
04
12
2018

d. □ at resentendng per recall of commitment (PC 1170(d).)
e. □ other (specify):

2933
2933.1
4019
2933
2933.1
4019

Time Served in Slate Institution
OMH

CDC

CRC

II

II

II

17. The defendant Is remanded to the custody of the sheriff [3 forthwith □ after 48 hours exduding Saturdays, Sundays, and holidays.
To be delivered to □ the reception center designated by the director of the California Department of Corrections and Rehabilitation
I~1 county jail
[7] other (specify): pyi

CLERK OF THE COURT
I hereby certify the foregoing to be a correct abstract of the judgment made in this action.
DEPUTY’S SIGNA

TBERNARDO ^

CR-290 [Rev. July 1,20121

\

DATE

FOCI

T

04/12/18

FELONY ABSTRACT OF JUDGMENT—DETERMINATE

Page 2 of 2

L

0

s

A

• , %

\_

»

V

m
or

1

^3d^7cA3

\
\
\

y

■

APR 2 6 2018

CALIFORNIA COURTS

Appellate Courts Case Information

THE JUDICIAL BRANCH OF CALIFORNIA
I

|Change court

Supreme Court

*|

Court data last updated: 04/23/2020 10:45 AM

Docket (Register of Actions)
PEOPLE v. HUGGINS
Division SF
Case Number S261216
Date

Description

Notes

03/16/2020

Petition for review filed

Defendant and Appellant: Thyochus A. Huggins
Attorney: Lindsay Sweet

03/16/2020

Record requested

Court of Appeal record imported and available electronically.

03/17/2020

Received:

Service copy of petition for review filed 3/16/2020 electronically.

03/18/2020

Received Court of Appeal record

One doghouse.

04/22/2020

Petition for review denied

!
Click here to request automatic e-mail notifications about this case.

Careers I Contact Us I Accessibility I Public Access to Records I Terms of Use I Privacy

© 2020 Judicial Council of California

I

IN THE

Cottrt of Appeal of tlje ibtate of California
IN AND FOR THE

THIRD APPELLATE DISTRICT
THE PEOPLE,
Plaintiff and Respondent,
v.
THYOCHUSA. HUGGINS,
Defendant and Appellant.

C086939
Sacramento County
No. 17FE008641
REMITTITUR TO TRIAL COURT CLERK
I, ANDREA K. WALLIN-ROHMANN, Clerk of the Court of Appeal of the State of
California for the Third Appellate District, do hereby certify that the attached opinion or
order, previously provided to the parties, is a true and correct copy of the original
opinion or order entered in the above entitled cause that has now become final.
WITNESS my hand and the seal of the Court affixed at my office this 23rd day of April
2020.
ANDREA K. WALLIN-ROHMANN
Clerk
£P>

By: Liz Outman
Assistant Deputy Clerk II
Receipt of the original remittitur in the above case is hereby acknowledged.
Dated:
Trial Court Clerk
By:
Deputy Clerk
cc: See Mailing List

07/

★r

v>

n%
£

M

IN THE

Court of appeal of t|\t £§>tate of California
IN AND FOR THE

THIRD APPELLATE DISTRICT
MAILING LIST
Re:

The People v. Huggins
C086939
Sacramento County
No.
17FE008641

Copies of this document have been sent by mail to the parties checked below unless they were
noticed electronically. If a party does not appear on the TrueFiling Servicing Notification and is
not checked below, service was not required.
Office of the State Attorney General
P.O. Box 944255
Sacramento, CA 94244-2550
Kimberley Ann Donohue
Office of the Attorney General
PO Box 944255
Sacramento, CA 94244-2550
Thyochus A. Huggins
DOB: 07/08/1982
CDC #: F10321
California State Prison, Solano
P. O. Box 4000
Vacaville, CA 95696-4000
Lindsay Sweet
Attorney at Law
258 A Street, Suite 1, PMB 71
Ashland, OR 95521
Central California Appellate Program
2150 River Plaza Drive, Suite 300
Sacramento, CA 95833

V

Sacramento County Superior Court
720 Ninth Street
Sacramento, CA 95814
Department of Corrections and Rehabilitation
P. O. Box 942883
Sacramento, CA 94283-0001
daicrsAdminassist@cdcr.ca.gov
(By e-mail)

